      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General


                                                                         Washington, D.C. 20201




February 17, 2011

TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Review of Medicare Contractor Information Security Program Evaluations for
               Fiscal Year 2008 (A-18-09-30200)


The attached final report provides the results of our Medicare contractor information security
program evaluations for fiscal year 2008.

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 added
information security requirements for Medicare administrative contractors, fiscal intermediaries,
and carriers to section 1874A of the Social Security Act (the Act) (42 U.S.C. § 1395kk:-l).
Pursuant to section 1874A of the Act, each Medicare contractor must have its information
security program evaluated annually by an independent entity. Section 1874A of the Act further
requires the Inspector General, Department of Health & Human Services, to submit to Congress
annual reports on the results of these evaluations, to include assessments of their scope and
sufficiency.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities,
and Information Technology Audits, at (202) 619-1175 or through email at
Lori.Pilcher@oig.hhs.gov. Please send us your final management decision, including any action
plan, as appropriate, within 60 days. Please refer to report number A-18-09-30200 in all
correspondence.


Attachment
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




REVIEW OF MEDICARE CONTRACTOR
     INFORMATION SECURITY
   PROGRAM EVALUATIONS FOR
       FISCAL YEAR 2008




                       Daniel R. Levinson
                        Inspector General

                         February 2011
                         A-18-09-30200
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 added
information security requirements for Medicare administrative contractors (MAC), fiscal
intermediaries, and carriers to the Social Security Act (the Act). These contractors process and
pay Medicare fee-for-service claims. Each Medicare contractor must have its information
security program evaluated annually by an independent entity, and these evaluations must
address the eight major requirements enumerated in the Federal Information Security
Management Act of 2002 (FISMA). To comply with this provision, the Centers for Medicare
& Medicaid Services (CMS) contracted with PricewaterhouseCoopers (PwC) to evaluate
information security programs at the MACs, fiscal intermediaries, and carriers using a set of
agreed-upon procedures.

The Act also requires evaluations of the information security controls for a subset of systems but
does not specify the criteria for these evaluations. To satisfy this requirement, CMS developed
an information security assessment methodology to test segments of the claims processing
systems at Medicare data centers, which operate the computer systems that process and pay
Medicare fee-for-service claims. CMS contracted with JANUS Associates, Inc. (JANUS), to
perform technical assessments at Medicare data centers using the assessment methodology.

The Inspector General, Department of Health & Human Services, must submit to Congress
annual reports on the results of these evaluations, to include assessments of their scope and
sufficiency. This report fulfills that responsibility for fiscal year (FY) 2008.

OBJECTIVES

Our objectives were to (1) assess the scope and sufficiency of Medicare contractor information
security program evaluations and data center technical assessments and (2) report the results of
those evaluations and assessments.

SUMMARY OF RESULTS

PwC’s evaluations of the contractor information security programs were adequate in scope and
sufficiency. We could not determine the scope and sufficiency of the JANUS work for many of
the data center technical assessments because of several issues with its working papers. PwC
reported a total of 161 gaps at 26 Medicare contractors. JANUS reported a total of 48 gaps at
8 data centers.

Assessment of Scope and Sufficiency

PwC’s evaluations of the contractor information security programs adequately encompassed in
scope and sufficiency the eight FISMA requirements referenced in the Act.




                                                 i
We could not determine the scope and sufficiency of the JANUS work for many of the data
center technical assessments because of several issues with its working papers, such as
insufficient evidence that all of the testing procedures had been completed, illegible handwriting,
lack of cross-references, and incomplete or undocumented elements. For two data centers,
JANUS omitted from its reports gaps identified during testing.

Results of Evaluations and Assessments

The results of the contractor information security program evaluations and data center technical
assessments are presented in terms of gaps, which are defined as the differences between FISMA
or CMS core security requirements and the contractors’ implementation of those requirements.

Results of Contractor Information Security Program Evaluations

In the 26 PwC evaluation reports for FY 2008, which covered all MACs, fiscal intermediaries,
and carriers, PwC identified a total of 161 gaps. The number of gaps per contractor ranged from
0 to 27 and averaged 6. The most gaps occurred in the following FISMA control areas: testing
of information security controls (50 gaps at 20 contractors), security program and system
security plans (31 gaps at 16 contractors), continuity of operations (25 gaps at 11 contractors),
and policies and procedures to reduce risk (23 gaps at 14 contractors).

The number of gaps reported in the PwC FY 2008 evaluation reports increased by 44 percent
when compared to the results for FY 2007. While the number of contractors with no gaps
increased by 3 (300 percent), the number of contractors with 10 or more gaps increased by
2 (67 percent).

Results of Data Center Technical Assessments

The eight Medicare data center technical assessment reports prepared by JANUS identified a
total of 48 gaps. The number of gaps reported per data center ranged from 1 to 16 and averaged
6. Most of the security gaps occurred in the following security control categories: audit and
accountability (15 gaps at 3 data centers), contingency planning (9 gaps at 5 data centers), and
access control (7 gaps at 1 data center).

The total number of gaps identified in FY 2008 (48) was 151 gaps fewer than the number
identified in FY 2007 (199). However, this was due to the decrease in the number of data centers
reviewed (13 in FY 2007, 8 in FY 2008) and the number of categories and specific security
control categories tested in FY 2008. CMS uses a rotational approach in performing its technical
assessments of data centers. Some categories are not tested every year. Access control, the
category with the most gaps in FY 2007 (111 gaps), was tested at only 1 data center in FY 2008,
but it was tested at 13 data centers in FY 2007. We did not perform a detailed comparison of the
number of gaps identified within the categories tested for the 2 FYs because the same categories
were not tested by JANUS at all operational data centers in FY 2008.




                                                 ii
Of the 48 gaps JANUS identified at the 8 data centers, 10 gaps were resolved and closed during
or after JANUS’s onsite visits to the data centers. Hence, there were a total of 38 gaps at data
centers requiring corrective action in FY 2008.

RECOMMENDATION

We recommend that CMS review all contractor documentation related to future data center
technical assessments and ensure that the work performed complies with CMS contractual
requirements. At a minimum, this should include a review of test plans to ensure that the
contractor has completed all required testing procedures and a review of contractor working
papers to verify that reported gaps have been adequately supported, identified, and included in
the technical assessment reports.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments to our draft report, CMS concurred with our recommendation. CMS also
stated that it would take the appropriate actions to address the identified issues. We have
included CMS’s comments in their entirety in Appendix G.




                                                iii
                                                  TABLE OF CONTENTS


                                                                                                                             Page

INTRODUCTION............................................................................................................. 1

          BACKGROUND .....................................................................................................1
              The Medicare Program ................................................................................. 1
              Medicare Prescription Drug, Improvement, and Modernization
               Act of 2003 ................................................................................................ 1
              Centers for Medicare & Medicaid Services Evaluation Process
               for Fiscal Year 2008................................................................................... 2

          OBJECTIVES, SCOPE, AND METHODOLOGY .................................................3
              Objectives ..................................................................................................... 3
              Scope ............................................................................................................. 3
              Methodology ................................................................................................. 3

RESULTS OF REVIEW .................................................................................................. 4

          ASSESSMENT OF SCOPE AND SUFFICIENCY ................................................4

          RESULTS OF CONTRACTOR INFORMATION SECURITY PROGRAM
          EVALUATIONS .....................................................................................................5
              Testing of Information Security Controls ..................................................... 6
              Security Programs and System Security Plans ............................................. 7
              Continuity of Operations Planning ............................................................... 8
              Policies and Procedures To Reduce Risk...................................................... 8

          RESULTS OF DATA CENTER TECHNICAL ASSESSMENTS .........................9
              Audit and Accountability .............................................................................11
              Contingency Planning ................................................................................. 12
              Access Control ............................................................................................ 12

          CONCLUSION ......................................................................................................12

          RECOMMENDATION .........................................................................................13

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ..........13

APPENDIXES

        A: ASSESSMENT OF SCOPE AND SUFFICIENCY FOR THE JANUS DATA
           CENTER ASSESSMENTS



                                                                     iv
B: LIST OF GAPS BY FEDERAL INFORMATION SECURITY MANAGEMENT ACT
   OF 2002 CONTROL AREA AND MEDICARE CONTRACTOR

C: PERCENTAGE CHANGE IN GAPS PER MEDICARE CONTRACTOR

D: MEDICARE CONTRACTOR CHANGE IN TOTAL GAPS BY FEDERAL
   INFORMATION SECURITY MANAGEMENT ACT OF 2002 CONTROL AREA

E: RESULTS OF MEDICARE CONTRACTOR EVALUATIONS FOR FEDERAL
   INFORMATION SECURITY MANAGEMENT ACT OF 2002 CONTROL AREAS
   WITH THE GREATEST NUMBER OF GAPS

F: LIST OF GAPS BY NATIONAL INSTITUTE OF STANDARDS AND
   TECHNOLOGY SECURITY CONTROL AREA AND DATA CENTER

G: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                             v
                                             INTRODUCTION

BACKGROUND

The Medicare Program

The Centers for Medicare & Medicaid Services (CMS) administers the Medicare program.
Medicare is a health insurance program for people age 65 or older, people under age 65 with
certain disabilities, and people of all ages with end-stage renal disease. In fiscal year (FY) 2008,
Medicare paid more than $395 billion on behalf of more than 45 million Medicare beneficiaries.
CMS contracts with Medicare Administrative Contractors (MAC), fiscal intermediaries, and
carriers to administer Medicare benefits paid on a fee-for-service basis. Some MACs, fiscal
intermediaries, and carriers operate in-house data centers to process Medicare claims, while
others use external data centers for this purpose.

In FY 2008, 16 distinct entities served as fiscal intermediaries, carriers, and Part A/B MACs.
Four of these entities also served as Durable Medical Equipment MACs. Five of the sixteen
entities also operated Medicare data centers, and two external entities operated the remaining
three data centers. Thus, 18 distinct entities processed and paid Medicare fee-for-service claims.

Medicare Prescription Drug, Improvement, and Modernization Act of 2003

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (MMA) added
information security requirements for MACs, fiscal intermediaries, and carriers to section 1874A
of the Social Security Act (the Act). 1 (See 42 U.S.C. § 1395kk-1.) Pursuant to section
1874A(e)(1) of the Act, each MAC, fiscal intermediary, and carrier must have its information
security program evaluated annually by an independent entity. This section requires that these
evaluations address the eight major requirements enumerated in the Federal Information Security
Management Act of 2002 (FISMA). (See 44 U.S.C. § 3544(b).) These requirements, referred to
as “FISMA control areas” in this report, are:

        1. periodic risk assessments,

        2. policies and procedures to reduce risk,

        3. security program and system security plans,

        4. security awareness training,

        5. testing of information security controls,

        6. remedial actions,


1
  The MMA contracting reform provisions added to section 1874A of the Act replace existing fiscal intermediaries
and carriers with MACs, which are to be competitively selected. Until such time as all MACs are in place, the
requirements of section 1874A apply to fiscal intermediaries and carriers.

                                                        1
       7. incident response, and

       8. continuity of operations planning.

Section 1874A(e)(2)(A)(ii) of the Act requires that the effectiveness of information security
controls be tested for an appropriate subset of Medicare contractors’ information systems.
However, this section does not specify the criteria for evaluating these security controls. CMS
developed an information security assessment methodology to comply with this provision.

Additionally, section 1874A(e)(2)(C)(ii) of the Act requires the Inspector General of the
Department of Health & Human Services to submit to Congress annual reports on the results of
such evaluations, including assessments of their scope and sufficiency. This report fulfills that
responsibility for FY 2008.

Centers for Medicare & Medicaid Services Evaluation Process for Fiscal Year 2008

CMS developed agreed-upon procedures (AUP) for the program evaluation based on the
requirements of section 1874A(e)(1) of the Act, FISMA, information security policy and
guidance from the Office of Management and Budget and the National Institute of Standards and
Technology (NIST), and the Government Accountability Office’s (GAO) Federal Information
Systems Controls Audit Manual (FISCAM). The independent auditors, PricewaterhouseCoopers
(PwC), under contract with CMS, used the AUPs to evaluate the information security programs
at the 26 MACs, fiscal intermediaries, and carriers. The AUPs are the same as those used in
FY 2007. PwC performed the evaluations and issued separate reports for the 26 MACs, fiscal
intermediaries, and carriers.

To comply with the section 1874A(e)(2)(A)(ii) requirement to test the effectiveness of
information security controls for an appropriate subset of contractors’ information systems, CMS
contracted with JANUS Associates, Inc. (JANUS), to plan, develop, and implement a
comprehensive program to perform testing of information security controls at eight Medicare
data centers. JANUS performed the assessments and issued separate reports for each of the eight
Medicare data centers.

It is important to note that entities and contractors are not the same. The 18 distinct entities
provided to CMS 34 contracted services to fulfill their responsibilities as Medicare fiscal
intermediaries, carriers, MACs, or data centers. Testing was performed for each of the
contracted services. Table 1 summarizes the change in the number of Medicare contractors and
data centers tested. In FY 2007, there were 31 Medicare contractors and 13 Medicare data
centers tested. Changes during FY 2008 resulted in the testing of 26 Medicare contractors and
8 Medicare data centers.




                                                2
    Table 1: Change in the Number of Medicare Contractors and Data Centers Tested
                                                                   Medicare    Medicare
                                                                  Contractors Data Centers
Ending Balance, FY 2007                                                31          13
Less: Entities that were no longer in the Medicare program by the      10           6
end of FY 2008
Add: MACs                                                               5
                              2
Add: Enterprise data centers                                                        1
Ending Balance, FY 2008                                                26           8

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to (1) assess the scope and sufficiency of Medicare contractor information
security program evaluations and data center technical assessments and (2) report the results of
those evaluations and assessments.

Scope

We evaluated the FY 2008 results of the independent evaluations and technical assessments of
Medicare contractors’ information security programs. Our review did not include an evaluation
of internal controls. We performed our reviews of PwC and JANUS working papers at CMS
headquarters in Baltimore, Maryland, and at Office of Inspector General regional offices.

Methodology

To accomplish our objectives, we performed the following steps:

        •    To assess the scope of the evaluations of contractor information security programs,
             we determined whether the AUPs included the eight FISMA control requirements.

        •    To assess the scope of the data center technical assessments, we reviewed the contract
             and statement of work between CMS and JANUS and verified that JANUS performed
             the work that CMS had specified.

        •    To assess the sufficiency of the evaluations of contractor information security
             programs, we reviewed PwC working papers supporting the evaluation reports to
             determine whether PwC completed the AUPs listed in the reports. We also
             determined whether PwC conducted the evaluations in accordance with attestation
             engagement standards established by the American Institute of Certified Public
             Accountants and in accordance with Government Auditing Standards. In addition, we

2
  As part of CMS’s data center consolidation initiative, enterprise data centers are being used to process and pay
Medicare fee-for-service claims. Eventually all CMS data center operations will transition from legacy data centers
to at most three enterprise data centers.

                                                         3
             determined whether the evaluation reports encompassed the eight FISMA control
             areas enumerated in section 1874A(e)(1) of the Act.

        •    To assess the sufficiency of the data center technical assessments, we reviewed
             supporting working papers to verify that JANUS completed all test procedures,
             reported all medium- and high-risk gaps, and adequately supported all reported results
             with sufficient and appropriate evidence. 3

        •    To report on the results of the JANUS evaluations and technical assessments, we
             aggregated the results contained in the individual contractor evaluation reports and
             data center technical assessment reports. We used the business risks listed in the
             individual technical assessment reports to aggregate the results. For the PwC
             evaluations, we used the number of gaps listed in the individual contractor evaluation
             reports to aggregate the results. In some instances, several gaps were noted under
             FISMA control subcategories. We counted duplicate gaps listed in a FISMA control
             area only once.

We conducted this performance audit in accordance with generally accepted government
auditing standards, except that we did not obtain comments from JANUS or PwC. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

                                          RESULTS OF REVIEW

PwC’s evaluations of the contractor information security programs were adequate in scope and
sufficiency. We could not determine the scope and sufficiency of the JANUS work for the data
center technical assessments because of several issues with its working papers. PwC reported a
total of 161 gaps at 26 Medicare contractors. JANUS reported a total of 48 gaps at 8 data
centers.

ASSESSMENT OF SCOPE AND SUFFICIENCY

PwC’s evaluations of the contractor information security programs adequately encompassed in
scope and sufficiency the eight FISMA requirements referenced in section 1874A(e)(1) of the
Act.

We could not determine the scope and sufficiency of the JANUS work for many of the data
center technical assessments because of several issues with its working papers. CMS’s contract
with JANUS provided for the planning, development, and implementation of a comprehensive
program to perform testing of information security controls at Medicare data centers.

3
  We present the results of the Medicare contractor information security program evaluations in terms of gaps,
which are defined as the differences between FISMA or CMS core security requirements and the contractors’
implementation of those requirements.


                                                         4
The test plan documentation supplied by JANUS for five of the eight data centers (63 percent)
did not contain sufficient evidence that all of the testing procedures had been performed.
Specifically, JANUS did not always indicate whether it actually completed each testing
procedure. Additionally, for four of the eight data centers (50 percent), we were unable to trace
all gaps presented in JANUS’s reports to supporting evidence because of illegible handwriting
and missing documented test scripts. Lastly, for four of the eight data centers (50 percent), we
were not able to determine whether JANUS included all medium- and high-risk gaps in the
respective reports because of incomplete or undocumented elements in the JANUS working
papers. For two data centers, JANUS omitted from its reports gaps identified during testing. See
Appendix A for our analysis of the JANUS data center assessments.

RESULTS OF MEDICARE CONTRACTOR INFORMATION SECURITY PROGRAM
EVALUATIONS

As shown in Table 2, the 26 evaluation reports identified a total of 161 gaps. The average
number of gaps per contractor was six. The number of gaps per contractor ranged from 0 to 27
for FY 2008. See Appendix B for a list of gaps per control area by contractor.

                        Table 2: Range of Medicare Contractor Gaps
                                       Number of Contractors With
                        Total                     2–5      6–9    10+
                FY      Gaps     0 Gaps 1 Gap     Gaps    Gaps    Gaps
               2007      112        1     8        18        1     3
               2008      161        4     3         8        6     5

The number of gaps reported in the PwC FY 2008 evaluation reports increased by 44 percent
when compared to the results for FY 2007. While the number of contractors with no gaps
increased by 3 (300 percent), the number of contractors with 10 or more gaps increased by
2 (67 percent). See Appendix C for the FYs 2007–2008 percentage change in gaps per Medicare
contractor.

Table 3 summarizes the gaps found in each FISMA control area in FYs 2007 and 2008. Six of
the eight FISMA control areas had an increase in gaps for FY 2008. (Appendix D summarizes
the changes in a graph.)




                                               5
      Table 3: Gaps by Federal Information Security Management Act Control Area
                                                                                      No. of
                                                                                 Contractors With
                                          Impact Levels   No. of Gaps               One or More
                                            of FISMA       Identified                 Gap(s)
                FISMA                     Control Area   FY         FY            FY         FY
             Control Area                 Subcategories 2007       2008          2007      2008
  Periodic risk assessments               High/Medium     1         2              1         2
  Policies and procedures to reduce
                                               High           19        23        15           14
  risk
  Security program and system
                                           High/Medium        21        31        17           16
  security plans
  Security awareness training                 Medium          17        14        10             9
  Testing of information security
                                               High           39        50        19           20
  controls
  Remedial actions                             High            0        15          0            9
  Incident response                            High            3         1          3            1
  Continuity of operations planning        High/Medium        12        25          4           11
    Total                                                    112       161

The Medicare contractor information security program evaluations covered several subcategories
within each FISMA control area. The “impact level” shown in Table 3 refers to the possible
level of adverse impact that could result from successful exploitation of gaps in any of the
FISMA controls area subcategories depending on the organization’s mission and criticality and
the sensitivity of the systems and data involved. CMS and independent auditors developed
ratings of high, medium, or low impact for the subcategories of the FISMA control areas. The
actual ratings assigned to the subcategories were all high or medium impact and were PwC’s
assessments. It is important to note that the impact levels were assigned to subcategories of the
FISMA control areas, not to individual gaps identified within the control areas or subcategories.
Individual gaps were assigned an overall risk level on a subjective basis by PwC after taking into
consideration the impact and likelihood of occurrence. However, as stated in NIST Special
Publication (SP) 800-115, Technical Guide to Information Security Testing and Assessment,
section 4.3, it is difficult to identify the risk level of individual vulnerabilities because they rarely
exist in isolation.

The following sections discuss the four FISMA control areas containing the most gaps. See
Appendix E for descriptions of each subcategory tested.

Testing of Information Security Controls

According to NIST SP 800-53, Recommended Security Controls for Federal Information
Systems and Organizations, Control CA-2, the effectiveness of information security policies,
procedures, practices, and controls should be tested and evaluated at least annually. NIST
SP 800-115, section 2.3, notes that security testing enables organizations to measure levels of
compliance in areas such as patch management, password policy, and configuration

                                                   6
management. According to GAO’s FISCAM, section 3.3, changes to an application should be
tested and approved before being put into production.

Six of the twenty-six Medicare contractors had no identified gaps in the testing of information
security controls, while the remaining 20 had 1 to 5 gaps each. In total, 50 gaps were identified
in this area, with all 50 gaps assigned to high-impact subcategories.

Following are examples of gaps in testing of information security controls:

   •   The individual performing the changes to supplemental claims processing software also
       moved the changes into production.

   •   Information technology (IT) weaknesses identified by the contractor during a review
       were not being tracked.

   •   The contractor did not perform an annual evaluation of platform configuration
       management procedures.

Without a comprehensive program for periodically testing and monitoring of information
security controls, management has no assurance that appropriate safeguards are in place to
adequately mitigate identified risks.

Security Program and System Security Plans

NIST SP 800-100, Information Security Handbook: A Guide for Managers, section 2.2.5, states
that an agency should ensure its information security policy is sufficiently current to
accommodate the information security environment and the agency mission and operational
requirements. Federal Information Processing Standards (FIPS) 200, Minimum Security
Requirements for Federal Information and Information Systems, and NIST SP 800-53, Control
PS-3, require organizations to screen employees before granting access to information and
information systems.

The Executive Summary of NIST SP 800-18, Guide for Developing Security Plans for Federal
Information Systems, states that system security plans should provide an overview of a system’s
security requirements and describe the controls in place or planned for meeting those
requirements.

Ten of the twenty-six Medicare contractors had no identified gaps in security program and
system security plans, while the remaining 16 had 1 to 5 gaps each. In total, 31 gaps were
identified in this area. Twenty-two gaps were assigned to high-impact subcategories.

Following are examples of gaps in security programs and system security plans:

   •   The contractor did not complete background investigations for all selected employees
       before their hire date.


                                                7
   •   A process for tracking and establishing corrective actions for weaknesses identified during
       vulnerability scanning was not in place.

   •   Not all security professionals received job-specific training.

If information security program requirements are not implemented and enforced, management
has no assurance that established system security controls will be effective in protecting valuable
assets, such as information, hardware, software, systems, and related technology assets that
support the organization’s critical missions.

Continuity of Operations Planning

According to NIST SP 800-34, Contingency Planning Guide for Federal Information Systems,
section 2.2, contingency planning represents a broad scope of activities designed to sustain and
recover critical information technology services following an emergency. Contingency planning
for information systems is part of an overall organizational program for achieving continuity of
operations for business operations.

Fifteen of the twenty-six Medicare contractors had no identified gaps in continuity of operations
planning, while the remaining 11 had 1 to 9 gaps each. In total, 25 gaps were identified in this
area, with 13 gaps assigned to a high-impact subcategory. Following are examples of gaps in
continuity of operations:

   •   Business continuity plans had not undergone a recovery exercise within the previous
       year.

   •   The contingency plan did not include the identification of all critical hardware and
       software resources.

   •   Not all data center employees received emergency response training in a timely manner.

Policies and Procedures To Reduce Risk

According to NIST SP 800-30, Risk Management Guide for Information Technology Systems,
section 1.2, risk management is the process of identifying and assessing risk and taking steps to
reduce risk to an acceptable level. Controls CM-6 and SI-2 in NIST SP 800-53 require
organizations to establish mandatory security configuration settings for IT products, monitor and
control changes to the configuration settings, and promptly install newly released
security-relevant patches and service packs.

Twelve of the twenty-six Medicare contractors had no identified gaps in policies and procedures
to reduce risk, while the remaining 14 had 1 to 2 gaps each. In total, 23 gaps were identified in
this area, with all 23 gaps assigned to a high-impact subcategory. Following are examples of
gaps in policies and procedures to reduce risk:



                                                 8
   •   The contractor did not have a documented process in place to formally track, monitor,
       and resolve those settings identified as “noncompliant” with the baseline configurations.

   •   Vulnerability assessments were not completed on the entire Medicare environment on a
       quarterly basis.

   •   The contractor did not formally document baseline configurations for system platforms,
       and there was no evidence that the configurations were reviewed, updated, or approved.

Ineffective policies and procedures to reduce risk could jeopardize an organization’s ability to
perform its mission, as well as to safeguard its information and IT assets. Without adequate
configuration standards and the latest security patches, systems may be susceptible to
exploitation that could lead to unauthorized disclosure, modification, or nonavailability of data.

RESULTS OF DATA CENTER TECHNICAL ASSESSMENTS

We present the results of the data center technical assessments in terms of gaps, which are
defined as the differences between FISMA or CMS core security requirements and the
contractors’ implementation of those requirements. As shown in Table 4, the eight Medicare
data center technical assessment reports identified a total of 48 gaps. The average number of
gaps per data center was 6. The number of gaps per data center ranged from 1 to 16.

                              Table 4: Range of Data Center Gaps
                                    Number of Data Centers With
                      Total            1–5      6–10    11–20   21–30             31-40
             FY       Gaps     0 Gaps Gaps     Gaps     Gaps    Gaps              Gaps
            2007       199        0     0         3       7       2                 1
            2008        48        0     4         2       2       0                 0

For FY 2008, CMS contracted with JANUS to evaluate NIST security controls at eight data
centers. At seven data centers, JANUS’s testing was limited to a policy and procedure review
only, which included testing the following six NIST security control areas:

   •   Contingency planning

   •   Configuration management

   •   Audit and accountability

   •   System and information integrity

   •   Risk assessment

   •   Security planning


                                                 9
At one enterprise data center, JANUS’ testing included six different NIST security controls in
addition to a penetration test of the mainframe and distributed systems:

   •   Access control

   •   Identification and authentication

   •   System and communication protection

   •   Physical and environmental protection

   •   Personnel security

   •   E-authentication

JANUS assigned each of the gaps to one of the security control areas. In a manner similar to that
of PwC, JANUS categorized the risks associated with the individual gaps as high, medium, or
low based on the potential impact and likelihood of exploitation. Of the 48 gaps JANUS
identified across all 8 data centers, 0 gaps were high risk, 12 gaps were medium risk, and 36 gaps
were low risk. Ten gaps were resolved and closed during or after JANUS’s onsite visits to the
data centers, including two medium-risk gaps and eight low-risk gaps. Hence, there were a total
of 38 gaps at data centers requiring corrective action in FY 2008.

The total number of gaps identified in FY 2008 (48) was significantly lower than the number
identified in FY 2007 (199), a decrease of 151 gaps. This was due to the decrease in the number
of data centers reviewed (13 in FY 2007, 8 in FY 2008) and the number of categories and
specific security control categories tested in FY 2008. We did not perform a detailed comparison
of the number of gaps identified within the security control categories tested for the 2 FYs
because the same categories were not tested by JANUS at all operational data centers in
FY 2008. CMS uses a rotational approach in performing its technical assessments of data
centers. Some categories are not tested every year.

Table 5 presents the aggregate results reported for the eight data centers. Appendix F shows the
number of reported gaps at each data center by security control area.




                                               10
                             Table 5: Data Center Reported Gaps by
             National Institute of Standards and Technology Security Control Area
                                     No. of               No. of    No. of
                                      Data    Total No.   High- Medium-       No. of
            Security Control        Centers    of Gaps     Risk      Risk    Low-Risk
                  Area              w/ Gaps Identified     Gaps     Gaps       Gaps
        Contingency planning            5             9         0           0           9
        Configuration management        3             5         0           1           4
        Audit and accountability        3          15           0           4         11
        System and information
                                        2             3         0           1           2
        integrity
        Security planning               3             5         0           3           2
        Access control                  1             7         0           3           4
        Identification and
                                        1             3         0           0           3
        authentication
        System and
                                        1             1         0           0           1
        communications protection
         Total                                     48           0          12         36

Note: JANUS did not report any gaps in the NIST security area of risk assessment for the seven
data centers in which the area was tested. JANUS did not report any gaps in the NIST security
control areas of physical and environmental protection, personnel security, and e-authentication
for the one data center in which those areas were tested.

The following sections discuss the three security control areas with the highest number of gaps.

Audit and Accountability

Controls AC-1, AU-2, and AU-3 in NIST SP 800-53 require organizations to develop,
disseminate, and periodically review or update audit and accountability policies and procedures.
This ensures that events that need to be audited as significant and relevant to the security of the
information system are identified and audit records are produced. These records should contain
sufficient information to establish the events that occurred, the sources of the events, and the
outcomes of the events.

One of the three data centers with audit and accountability control area gaps had 13 of the 15
gaps in this area. Examples of gaps in this area included:

    •    undocumented policies and procedures for logging and reporting of application-specific
         events,

    •    lack of documentation on audit trail data retention, and


                                                 11
    •   failure to assign responsibility for periodic review of audit and accountability policies
        and procedures.

Contingency Planning

According to the Executive Summary of NIST SP 800-34, without complete and up-to-date
contingency plans, the data centers cannot be assured that their systems can be quickly and
effectively recovered following a disruption. The contingency plans should contain detailed
guidance and procedures for restoring a damaged system.

Of the seven data centers in which contingency planning was tested, five had control gaps in the
area of contingency planning. Examples of gaps in this area included:

   •    significant information and resources supporting critical and sensitive operations were
        not identified and documented in the business continuity plan,

   •    there were discrepancies in the recovery time objectives, and

   •    there were insufficient alternate processing site agreements.

Access Control

According to GAO’s FISCAM, section 3.2, inadequate access controls diminish the reliability of
computerized data and increase the risk of destruction or inappropriate disclosure of data. Gaps
in access control create vulnerabilities in the confidentiality, integrity, and availability of
Medicare data and systems. Associated gaps in the configuration of systems software that
control access to systems can make computers vulnerable to unauthorized access.

Access control gaps were noted in the one enterprise data center that was tested for access
control. Examples of gaps in this area included:

    •   users had the ability to read files containing personal health information and

    •   an excessive number of users had update access to sensitive system files.

CONCLUSION

The work performed by PwC to evaluate contractor information security programs adequately
encompassed the eight FISMA requirements referenced in section 1874A of the Act. Gaps
reported during the PwC program evaluations were supported by documented evidence.

However, we could not determine the scope and sufficiency of the JANUS work for all of the
data center technical assessments because of several issues with its working papers. In many
instances, the documentation supplied by JANUS did not provide evidence of the testing
procedures performed at the data centers. The documentation JANUS provided did not always
indicate whether JANUS actually completed each testing procedure, and cross-references to

                                                 12
supporting documentation were missing for many of the test procedures. In many cases, we
were unable to trace gaps presented in JANUS’s final reports to supporting evidence. Because
the documentation provided by JANUS did not reasonably ensure that JANUS completed the
work CMS engaged it to do, we could not determine whether JANUS reported all medium- or
high-risk gaps and adequately supported all gaps that were included in the reports.

RECOMMENDATION

We recommend that CMS review all contractor documentation related to future data center
technical assessments and ensure that the work performed complies with CMS contractual
requirements. At a minimum, this should include a review of test plans to ensure that the
contractor has completed all required testing procedures and a review of contractor working
papers to verify that reported gaps have been adequately supported, identified, and included in
the technical assessment reports.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments to our draft report, CMS concurred with our recommendation. CMS also
stated that it would take the appropriate actions to address the identified issues. We have
included CMS’s comments in their entirety in Appendix G.




                                               13
APPENDIXES
                APPENDIX A: ASSESSMENT OF SCOPE AND SUFFICIENCY
                    FOR THE JANUS DATA CENTER ASSESSMENTS

                        Office of Inspector General Criteria for Assessing
                                     JANUS Working Papers
                     Sufficient Evidence           Sufficient
                     That All Work Was       Documentation for All Reported All Medium-
    Data Center         Performed?              Reported Gaps?          and High-Risk Gaps?
         1                    No                       No                   Inconclusive1
         2                    No                       No                   Inconclusive1
         3                    No                      Yes                       No2
         4                   Yes                      Yes                       Yes
         5                   Yes                      Yes                       No2
         6                    No                       No                   Inconclusive1
         7                   Yes                      Yes                       Yes
         8                    No                       No                   Inconclusive1
1
 Because of deficiencies with JANUS working papers, we were unable to determine whether
JANUS reported all medium- and high-risk gaps.
2
    JANUS omitted from the data center’s report gaps identified during testing.



JANUS Associates, Inc. = JANUS
                                APPENDIX B: LIST OF GAPS BY
                   FEDERAL INFORMATION SECURITY MANAGEMENT ACT OF 2002
                         CONTROL AREA AND MEDICARE CONTRACTOR

                                             Control Areas (With Impact Levels)
                                        Security
                            Policies    Program
                              and          and                  Testing of                         Continuity
              Periodic     Procedures    System     Security   Information                             of
                Risk       To Reduce    Security   Awareness     Security    Remedial   Incident   Operations
Medicare     Assessments      Risk        Plans     Training     Controls     Actions   Response    Planning    Total
Contractor     (High)        (High)      (High)    (Medium)       (High)      (High)     (High)      (High)     Gaps
    1             0             1           0          0            3            0          0          0         4
    2             0             0           1          0            2            0          0          1         4
    3             0             0           1          0            1            0          0          1         3
    4             0             0           1          2            1            0          0          0         4
    5             0             2           1          1            2            0          0          0         6
    6             0             0           1          0            2            2          0          0         5
    7             0             0           0          1            0            0          0          0         1
    8             0             0           0          1            0            0          0          0         1
    9             0             0           0          0            0            0          0          0         0
   10             0             0           0          0            0            0          0          0         0
   11             0             0           0          0            1            0          0          0         1
   12             0             0           0          0            0            0          0          0         0
   13             0             0           0          0            0            0          0          0         0
   14             0             2           1          0            3            0          0          0         6
   15             0             2           1          0            2            0          0          0         5
   16             0             2           1          0            3            0          0          0         6
   17             0             0           2          1            2            1          0          0         6
   18             1             2           5          2            4            2          0          4         20
   19             1             2           5          2            4            2          0          4         20
   20             0             1           2          2            3            1          0          1         10
   21             0             1           0          0            2            0          0          1         4
   22             0             1           0          0            1            0          0          1         3
   23             0             1           1          0            5            2          0          1         10
   24             0             2           5          2            5            3          1          9         27
   25             0             2           1          0            2            1          0          1         7
   26             0             2           2          0            2            1          0          1         8
  Total           2            23          31         14           50           15          1          25       161

         Note: Impact levels for Federal Information Security Management Act of 2002 (FISMA)
         control areas were derived by PricewaterhouseCoopers by taking the highest value from among
         the subcategories.
APPENDIX C: PERCENTAGE CHANGE IN GAPS PER MEDICARE CONTRACTOR

Contractor             FY 2007 GAPS                  FY 2008 GAPS             % Change
       1                      4                            4                        0%
       2                      2                            4                     100
       3                      1                            3                     200
       4                      4                            4                       0
       5                      1                            6                     500
       6                      5                            5                       0
       7                      2                            1                     (50)
       8                    N/A                            1                     N/A
       9                    N/A                            0                     N/A
      10                      1                            0                    (100)
      11                      2                            1                     (50)
      12                      1                            0                    (100)
      13                      0                            0                       0
      14                     3                             6                     100
      15                     1                             5                     400
      16                      3                            6                     100
      17                      4                            6                      50
      18                    N/A                           20                     N/A
      19                     10                           20                     100
      20                      2                           10                     400
      21                    N/A                            4                     N/A
      22                      5                            3                     (40)
      23                      3                           10                     233
      24                     12                           27                     125
      25                     3                             7                     133
      26                    N/A                            8                     N/A
Contractors No
  Longer in
   Program                    43                            -                      -
     Total                   112                          161                    44%

Note: Contractors listed as “N/A” were new Medicare Administrative Contractors in FY 2008.


FY = fiscal year
        APPENDIX D: MEDICARE CONTRACTOR CHANGE IN TOTAL GAPS
       BY FEDERAL INFORMATION SECURITY MANAGEMENT ACT OF 2002
                            CONTROL AREA


         60
         50
         40
                                                         FY2007
Gaps




         30
                                                         FY2008
         20
         10
          0




                          FISMA Control Area
                                                                                      Page 1 of 5

     APPENDIX E: RESULTS OF MEDICARE CONTRACTOR EVALUATIONS
     FOR FEDERAL INFORMATION SECURITY MANAGEMENT ACT OF 2002
         CONTROL AREAS WITH THE GREATEST NUMBER OF GAPS

The “impact level” shown in Tables 1 through 4 on the following pages refers to the level of
adverse impact that could result from successful exploitation of a vulnerability in any of the
FISMA control areas. Impact can be described as high, medium, or low in light of the
organization’s mission and criticality and the sensitivity of the systems and data involved.
PricewaterhouseCoopers assigned a rating of high or medium impact to each of the subcategories
in the agreed-upon procedures developed by the Centers for Medicare & Medicaid Services
(CMS). It is important to note that the impact levels were assigned to subcategories of the
FISMA control areas, not the individual gaps identified within the control areas or subcategories.
Individual gaps were assigned an overall risk level on a subjective basis by
PricewaterhouseCoopers after taking into consideration the impact and likelihood of occurrence.
                                                                                         Page 2 of 5

TESTING OF INFORMATION SECURITY CONTROLS

The Medicare contractor information security program evaluations covered five subcategories
related to the testing of information security controls. The evaluation reports identified a total of
50 gaps in this FISMA control area.

                    Table 1: Testing of Information Security Controls Gaps
                                                        Total No. of Gaps           Subcategory
                        Subcategory                       in This Area              Impact Level
     Management reports exist for the review and
     testing of information security policies and
     procedures, including network risk assessments,
1                                                               2                        High
     accreditations and certifications, internal and
     external audits, security reviews, and penetration
     and vulnerability assessments.
     Annual reviews and audits are conducted to
     ensure compliance with FISMA guidance from
     the Office of Management and Budget for
2    reviews of security controls, including logical           17                        High
     and physical security controls, platform
     configuration standards, and patch management
     controls.
     Remedial action is being taken for issues noted in
3                                                               6                        High
     audits.
4    Change control procedures exist.                           6                        High
     Change control procedures are tested by
5                                                              19                        High
     management to ensure they are in use.
       Total                                                   50
                                                                                       Page 3 of 5

SECURITY PROGRAM AND SYSTEM SECURITY PLANS

The Medicare contractor information security program evaluations assessed 10 subcategories
related to security program and system security plans. The evaluation reports identified a total of
31 gaps in this FISMA control area.

                 Table 2: Security Program and System Security Plan Gaps
                                                       Total No. of
                                                       Gaps in This  Subcategory Impact
                        Subcategory                       Area             Level
 1   A security plan is documented and approved.            0               High
     A security management structure has been
 2                                                          2               High
     established.
     Information security responsibilities are clearly
 3                                                          3               High
     assigned.
 4   Owners and users are aware of security policies.       0               High
     Hiring, transfer, termination, and performance
 5                                                          0               High
     policies address security.
     Management has documented that it periodically
     assesses the appropriateness of security policies
 6                                                          9               High
     and compliance with them, including testing of
     security policies and procedures.
     Management ensures that corrective actions are
 7                                                          8               High
     effectively implemented.
 8   The plan is kept current.                              1             Medium
 9   Employee background checks are performed.              5             Medium
     Security employees have adequate security
10                                                          3             Medium
     training and expertise.
       Total                                               31
                                                                                        Page 4 of 5

CONTINUITY OF OPERATIONS PLANNING

The Medicare contractor information security program evaluations assessed 13 subcategories
related to continuity of operations planning. The evaluation reports identified a total of 25 gaps
in this FISMA control area.

                       Table 3: Continuity of Operations Planning Gaps
                                                      Total No. of
                                                      Gaps in This   Subcategory Impact
                       Subcategory                        Area             Level
1    Emergency processing priorities are established.           0                   High
     Adequate environmental controls have been
2                                                               0                   High
     implemented.
     Hardware maintenance, problem management,
3    and change management procedures exist to                  2                   High
     help prevent unexpected interruptions.
     Policies and procedures for disposal of data and
4    equipment exist and include applicable Federal             0                   High
     security and privacy requirements.
5    An up-to-date contingency plan is documented.              3                   High

6    The plan is periodically tested.                           5                   High
     Results are analyzed and contingency plans
7                                                               2                   High
     adjusted accordingly.
     Physical security controls exist to protect
8                                                               1                   High
     information technology resources.
     Critical data and operations are formally
9                                                               1                  Medium
     identified and prioritized.
     Resources supporting critical operations are
10                                                              2                  Medium
     identified in contingency plans.
     Data and program backup procedures have been
11                                                              1                  Medium
     implemented.
     Staff has been trained to respond to
12                                                              7                  Medium
     emergencies.
     Arrangements have been made for alternate data
13                                                              1                  Medium
     processing and telecommunications facilities.
      Total                                                    25
                                                                                        Page 5 of 5

POLICIES AND PROCEDURES TO REDUCE RISK

The Medicare contractor information security program evaluations assessed four subcategories
related to policies and procedures to reduce risk. The evaluation reports identified a total of 23
gaps in this FISMA control area.

                   Table 4: Policies and Procedures To Reduce Risk Gaps
                                                        Total No. of Gaps         Subcategory
                      Subcategory                         in This Area            Impact Level
    Documentation exists that outlines reducing the
1   risk exposure identified in periodic risk                    0                    High
    assessments.
    Systems security controls have been tested and
2   evaluated. The system/network boundaries                     3                    High
    have been subjected to periodic reviews/audits.
    All gaps in compliance per CMS’s core
3   security requirements are identified in the                  2                    High
    results of management’s compliance checklist.
    Security policies and procedures include
4   controls to address platform security                       18                    High
    configurations and patch management.
      Total                                                     23
  APPENDIX F: LIST OF GAPS BY NATIONAL INSTITUTE OF STANDARDS AND
       TECHNOLOGY SECURITY CONTROL AREA AND DATA CENTER

                                                Data    Center
 NIST Security
                                                                                        Total Gaps
 Control Area          1       2        3        4        5      6        7        8
    Contingency
      Planning         1       0        1        5        0      1        1        0         9
   Configuration
   Management          1       0        0        1        0      3        0        0         5
     Audit and
   Accountability      0       13       0        0        1      1        0        0        15
    System and
    Information
      Integrity        2       0        0        0        0      1        0        0         3
  Security Planning    1       3        0        0        0      1        0        0         5
   Access Control      0       0        0        0        0      0        0        7         7
  Identification and
   Authentication      0       0        0        0        0      0        0        3         3
     System and
  Communications
     Protection        0       0        0        0        0      0        0        1         1
        Total          5       16       1        6        1      7        1       11        48

Note: JANUS did not report any gaps in the NIST security control area of risk assessment for
the seven data centers in which the area was tested. JANUS did not report any gaps in the NIST
security control areas of physical and environmental protection, personnel security, and
e-authentication for the enterprise data center in which those areas were tested.

NIST = National Institute of Standards and Technology
                                                                                                                Page 1 of 4


APPENDIX G: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS 



   , ......., 	
   (-:J-          D"'''''ENT OF HEALTH. HUMAN SERVICES 


                                                                                       Ad",ini.t•• fD.
                                                                                       W.~DC         20201




             PATE,           DEC 2 0 2011

             TO: 	         Daniel R. Lcvin50fl 

                           Inspector General 


             FROM: 	       Dona.ld. M. IkrwiCk,.!1~
                           AdminIstrator     -
                                                   .. .Jj                 f'L
                                                                          I   ~
                                                                                ~
             SUBJECT: 	 Office oflnspeclor (kr=al (OIG) Draft Report - Review ofMedic:art COII/fUCIO,
                           InjormoJion &cw-ily Program £>'(lIumlonsjor Piscal rear 2008 (A-l 8-09-)0200)

             Thank you for !be opponwtity 10 review the subject oro draft repan ti tled, Re,-iew o[Medicore
             COn/raetor "iformatio"Set;"'iry Program E''I1lualiorlSjor Fiscal Year (FY) 2008 (A.18·09­
             302(0).

             hi summary, the 01G found thatlhc work performed by Priccw3tefhouscCoopers(PwC) \0
             c\'aIWIlC informalion .w:cunly prognuns at the Medicare administnlli'1: ro.nraclors (MACs).
             fiscal inlmnediaries, and carriers, iOdeqWl.\cly el>C<lmpassed lite eight Federal !nformalj,;m
             Securily Management Act (FISMA) requirements referenced in section 1874A of the Ac\. ~
             Medicare CQntnlCWT'!; process and poy Medicare fee-for-service claims, Ho....ever, OIG was nol
             able 10 delenninc!he scope and sufficiency ormc work perfo~ by JANUS Associales, Inc,
             (JANUS) 10 tesl segments of the claims processing systems because of several issues witll ils
             working pllpeTS.

             The Centers for Medicare &. Medicaid Servi~ (CMS) concurs v.ith me OIO's finding and
             n:ocommendation to ~vicw all contractor do<;umnllation ~Iated to futu~ daU! center 1«lInical
             assessmentS and ensure lhallhe "''(Irk performed complies wilh CMS contmclual requi~menl$,
             CMS ....iIl continuo: to rc:view all documenU!tion related to contJa<;lOr Security Test and
             E''llluation (ST&E) documentation and ensure lhat sile lest plans, working papers, draft ~JlOIU,
             seripts, fioal reports, elc_are ~viewed thoroughly duri ng and aftcroompldion of audits.

              Attached are cffitial comments from the Centers for Medi= &. Medicaid Services. If you have
              any questions regarding these comments. please conlacl C. Ryan BrewC1", Chief Information
              Security Officer. at (4 10)786-2614.

              ~,

              C. Ryan BrcwC1", CISO, Di=lor, OTSIOCISO

              Attachment
                                                                                                 Page 2 of 4




OIG RECOMMENDATION

We recommend that eMS review all COnlractor documentation related to fulure data center
technical assessments and ensure that the work perfonned complies with eMS contractual
requirements. At a minimum, this should include (I review of test plans to ensure that the
contractor has completed all required testing procedures and a review of contractor working
papers \0 verify that reponed gaps have been adequately supported, identified, and included in
the technical assessment reports.


eMS RESPONSE:

The eMS concurs with the OIG recommendation and provides infonnation on eMS review of
contractor documentation. e MS will continue to review all documentalion related \0 contractor
Security Test and Evaluation (ST&E) documentation and ensure that sile test plans. working
papers. draft reports, scripts, final reports. elc. are reviewed thoroughly during and afler
completion of audits. The following list depicts the reviews performed on docwnentation
provided to CMS for the FY 2008 - FY 2010 ST&E audits. The Office of lnfonnation Systems
(OISfEDCG) at CMS reviews all ST&E docwnentation related to ST&E audits.

For FY 2008 - ST&E contractor J.lDUS Associ.ltes, CMS reviewed the following:
    • 	 Palmetto GBA - 6 control families tested for phase 2 controls
    • 	 Quality Nel - 6 control fami lies tested for phase 2 controls
    • 	 Highmark -6 control families tested for phase 2 controls
    • 	 Vcri:wn - 5 control families tested for phase I controls
    • 	 BCBS Florida - 6 control families tested for phase 2 controls
    • 	 Baltimore Data Center - 6 control families tested plus pen test for phase I controls
    • 	 Tulsa (EDS) Data Center - 6 control families tested for phase 2 contro ls
    • 	 Plano (MCS) Data Center - 6 contro l families tested fOf phase 2 controls
    • 	 Colwnbia (CDS) Data Centcr - 6 control families tested fOf phase I controls
    • 	 NOS - 6 control fam ilies tested for phase 2 controls
    • 	 Mutual of Omaha - 6 contro l families tested for phase 2 controls

 For FY 2009- ST&E contractor IFed LLC, CMS reviewed the following:
     • 	 Tulsa (EDS)- 6 control families tested for phase 3 controls (re-cert)
     • 	 Columbia (CDS) Data Center - 12 control families tested for phase 2 and phase 3
         controls (re-cert)
     • 	 Palmetto - 6 control famil ies tested for phase 3 controls
     • 	 WPS (Mutual of Omaha) - 6 control families tested for phase 3 controls
     • 	 NOS - 6 control families tested for phase 3 controls
     • 	 Cahaba - 6 control families tested for phase I controls
     • 	 Baltimore Data center - 6 control families tested pl us pen test for phase 2 controls
                                                                                                    Page 3 of 4




For FY 2010 - ST&E contractor ired LLC, eMS reviewed the following:
   • Tulsa (EDS) - 5 control fami lies tested for phase I contro ls
   •   Columbia (CDS) Data Cenler - 5 control families tested fOT phase 1 controls
   •   Baltimore Data Center - 6 control families tested [or phase 3 controls

ll1c eMS continues to test control areas wllere deficiencies occurred in previous fiscal years.
Control areas are selected based on the pha$c of the audit cycle. For fiscal years 2008 and 2009,
eMS conccntrnled on testing repeat controls for tile Enterprise Data Centers (HP Tulsa. CDS
Columbia, and the Baltimore Data Center). The practice of retesting controls for problem areas
in the EDC's continues with the FY 2010 ST&E audits. The following list depicts the controls
tested in FY 2008 and FY 2009 at the remaining Icgacy Medicarc data Centers and the EDC's.

Controls TH ted 2008;

BeBS Florida. Palmetto GBA, Mutual of Omaha, Plano (MeS) Data center, Quality Net, Tulsa
Data Center, Highmark, and NGS:
       Audit and Accountability (AU) - Technical
       Configuration Managcment (CM) - Operational
       Contingency Planning (C P) - Opera/ional
       Planning (PL)· Management
       Risk Assessment (RA) - Management
       System and Information Integrity (SI). Operational

Colwnbia Data Center and Baltimorc Data Ccnter
      Access Control (AC) - Technical
      Identification and Authentication (lA) - Technical
      Personal Security (PS) - OperOflOMI
      Physical and Envi ronmental Protection (PE) - Operational
      System and Communications Protection (SC) - Technical

CODtrol ~   THttd 2009:

Tulsa Data Cemer, Palmetto GBA, WPS. NGS. Cahaba: 

       Awareness and T raining (A1) - Operational 

       Security Assessment and Authori zation (CA) - MalUlgemen/ 

       Incident Response (IR) - Opera/ioMI 

       MaimetlllOCe (MA) - Operationol 

       Media Prote<:tion (MP) - Opera/ional 

       System and Services Acquisi tion (SA)· M<JJlllgcment 



 Columbia Dala CenteT:
        Awareness and Tmining (A1) - OperaJional
        Audit and Accountability (AU) - Technical
        Security Assessment and Authorization (CA) - Management
        Configlll'1ltion Management (CM)- OperQliQnal
                                                                                                 Page 4 of 4




       Contingency Planning (CP) - Opera/lonal 

       Incident Response (IR) - Opera/iunol 

       Maintenance (MA) - Opuational 

       Media Protection (MP) - Operational 

       Planning (PL) • Management 

       Risk Assessment (RA) - Management 

       System and Services AcquiSition (SA) - Management 

       System and Information Integrity (SI) - Operational 


Modified testing was performed due 10 the A-123 testing of same control s and e MS was able to
inherit a portion oflhe A- I23 work.

Baltimore Data Center:
       Audit and Accountability (AU) - Technical
       Configuration Management (eM) - OperOliOn4/
       Contingency Planning (C P) - Operaliurwl
       Planning (PL) - Management
       Risk Assessment ( RA) - Management
       System and In form ation Integrity (51) - Operational

Control! T esled 201U:

Tulsa Data Center:
       Access Control (Ae) - Technical
       Identification and Authenti cation (IA) • Techn ical
       Personal Secwity (PS) - Operational
       Physica l and Environmental Protect ion ( PE) - Opera/ional
       System and Communications Protection (SC) - Techn ical

Columbia Data Center:
      Access Control (AC) - Technical
      Identification and Authentication (IA) - Technical
      Personal Securi ty (PS) - Opera/ional
      Physical and Envi ronmental Protection (P E) - Opera/ional
      System and Communications Protection (SC) - Technical

Baltimore Data Center: 

       Awareness and Trai ning (AT) - Operalional 

       Security Assessment and Authorization (CA) - Management 

       Incident Response ( rR) - Operational 

       Maintenance (MA) - Operational 

       Med ia Protection (MP) - Operational 

       System and Services Acquisition (SA) - Managemem 

